US Attorneys' Office Eastern District of Virginia Press Release                                   Page 1 ofl


                    I.E]   pressreleaseheader




     FOll INfMEDIATE·RELEASE:                                                           August 28, 2009
     PetetCarr
     Public In:'f6rrnatlotl Officer
     PhQne(703) 842..4050 Fax: (703) 299~2584
     Email: usavae.press@usdoj.gov
     Web Address: ·www.usdoj.. gov/usao/vae

               Former PTOEmployee Pleads Guilty in $500,000 Embezzlement Scheme
     (Alexandria, Va) - Karen L. Parish, age 39, ofWoodbrid.ge, Va., pleaded guilty yesterday
     eVening to conspiracy tocotrirhit wire fraud in connection with an embezzlement scheme.

             Dana I Boente, l.Jnit6dStates Attorney fot the Eastern District ofVirgihia, and Todd
    JZinser, Inspector General for the US. Department ofCotntl1erce, made the announcement after
     the pl~awasaccepted byunited States j)isttict Judge T.S.El1i~, III. .Parish faces a maximum
     pen~ltyof20 years in prison ",henshe \Villbe sentenced on Nov. 20, 2009. According to the
     tetms of the plea agreement, she must also pay full restitution to the victim of her fraud.

            1\ccording toastatemenhoffacts filed with the plea, Parish was. a financial analyst fonhe
     U.S Patentand Trademark Office. She managed an account to which PTO customers deposited
     fundsthat\vereto beusedtopayexpehses incurred itlprocessingtheirpatent and. trademark
     applications. Parish transfertedfundsfrom this account to accounts.controlled by co-conspirator
     MiChael Reid. Parishfrauduleptly concealed the transfers by falsely making them 100kJike
     refund paY111erttsto PTOcustomers. DUrirtg the COUrse oftheeoMpira:cy, Parish and Reid stole
     $534,338.55 from the PTO. Reid previously pleaded guilty on August 10,2009.
                                          r
              "This. case und.ersc6res the importance ofstrong internal controls. It also emphasizes the
     sigtiificantneed to stress integrity as a cOre value Within the Federal workforce," said Inspector
     General ToddZinser. "I ",oUld liketo thankthe US. Attorney's Office for prosecutingthis case,
     and I would like to recognize new management at the Patent and Trademark Office of Financial
     Management for identifying and reporting financial irregularities, which eventually led tothis
     conviction?'

           . The Case was irivestigated. by the US. Department of Commerce Office of Inspector
    Getleral.AssistantUnited States Attdrney Edmund P.Power is prosecuting the case on behalf of
    the United States.
    A copyofthis ptessreleasemay be found on the website of the United States Attorney's Office
    for the Eastern District of Virginia at http://www.usdoj.gov/usao/vae. Related court documents
    andinfonriatiort may be fOlmd ort the website of the District Court for the Eastern District of
    Virginia athttp://WwW.vaed.uscourts.gov ot on http://pacer.uspci.uscol.lrts.gov.

                                                    ###




http://www.usdoj.gov/usao/vaelPressreleases/08-AugustPDFArchive/09/20090828parishnr... 8/31/2009
